Table of Contents
Return
to the USDOJ/OIG Home Page
The Federal Bureau of Prisons'
Inmate Financial Responsibility Program
Report Number I-2000-023
September 2000
TABLE OF CONTENTS
MEMORANDUM FOR KATHLEEN HAWK SAWYER
EXECUTIVE DIGEST
INTRODUCTION
Court-Ordered Financial Obligations
Roles and Responsibilities for the IFRP
Sources of Inmate Earnings
IFRP Payments
Effects of Non-Participation
INSPECTION RESULTS
Implementation of IFRP Guidance Can Be Improved
Description of Implementation Problems
Sanctions
Conclusion
Recommendation
Documenting Inmate Progress
Conclusion
Recommendation
IFRP Quality Review Procedures
Conclusion
Recommendation
Community Corrections Centers Should Assist in
Collecting IFRP Payments
Conclusion
Recommendation
APPENDIX I:  Scope and Methodology
APPENDIX II:  BOP's Response to the Draft Report
APPENDIX III: Office of the Inspector General's Analysis of BOP's Response